August 17, 2001
Evaluation Report No. 01-002


Review of FDIC's Background Investigation
Process for Prospective and Current Employees
Federal Deposit Insurance Corporation
801 17th Street, N.W., Washington, D.C. 20434                                 Office of Inspector General




                                                    August 17, 2001


Honorable Sue W. Kelly
Chairwoman
Subcommittee on Oversight and Investigations
Committee on Financial Services
House of Representatives
Washington, D.C. 20515

Dear Madam Chairwoman:

This report responds to your request as Chairwoman of the U.S. House of Representatives
Subcommittee on Oversight and Investigations (Subcommittee) that the Office of Inspector
General (OIG) evaluate the Federal Deposit Insurance Corporation’s (FDIC) policies, procedures
and practices under which it conducts, adjudicates, and documents background investigations of
prospective and current employees. In addition, at the FDIC’s request, we assessed whether the
Corporation had effectively implemented a process to ensure proper risk designations had been
assigned to positions.

This report provides information addressing both of those areas, as well as recommendations we
made to the Corporation and its response. The FDIC tentatively agreed with the eight
recommendations in this report. The Corporation will issue a memorandum to the OIG by
September 15, 2001, summarizing planned corrective actions for each of the recommendations in
the report, including expected completion dates and documentation that will confirm completion.
The OIG will evaluate the FDIC’s planned corrective actions and provide the results of our
analysis to the Subcommittee.

As you requested, we have also provided the Subcommittee with a copy of FDIC Circular
2120.1, Personnel Suitability Program, dated September 24, 1999, which established the
responsibilities, policy requirements, and procedures for the Corporation's position risk
designation and background investigation processes.

Should you have any questions or need additional information, please call me at 202-416-2026
or Russell A. Rau at 202-416-2543.


Sincerely,


[Electronically produced version; original signed by Patricia M. Black for Gaston L. Gianni, Jr.]
Gaston L. Gianni, Jr.
Inspector General



                                                2
                             TABLE OF CONTENTS

INTRODUCTION                                                                                 4

RESULTS IN BRIEF                                                                             4

BACKGROUND                                                                                   5

SUITABILITY POSITION RISK DESIGNATION PROCESS                                                7

The FDIC Has Not Completed Position Designation Records for All Positions                    8

USOPM Criteria Were Not Always Consistently Applied in Determining Position Risk
Levels                                                                                       9

The FDIC’s Safety and Soundness and Compliance Examiner Positions Have a Lower
Risk Level Designation Than Public Trust Positions                                          10

ADP Responsibilities Were Not Always Considered in Position Risk Designations               11

BACKGROUND INVESTIGATION PROCESS                                                            13

1. Has the Corporation issued policies for conducting, adjudicating, and documenting
background investigations of prospective and current employees?                             13

2. Has the Corporation issued or adopted a set of procedures, known to personnel
officers and program managers, under which the policies for investigations of prospective
and current employees are to be implemented?                                                14

3. Have the procedures been recently reviewed and revised?                                  14

4. How does the FDIC monitor compliance with these procedures?                              15

5. What evidence do you have to demonstrate that the Corporation has implemented
these procedures in a manner that minimizes the risk of improper access, use, or
manipulation of sensitive private financial data?                                           16

6. Are background investigations of prospective employees conducted prior to hiring?
Provide analysis demonstrating that Corporation managers adjudicate the results in a
timely manner, so troublesome cases are quickly resolved prior to final employment
decisions. Provide proof that the results of the investigations are documented in
personnel files.                                                                            18




                                               2
7. Are current employees periodically re-investigated throughout their careers, and are
such re-investigations adjudicated and documented to the same extent as investigations
for prospective employees?                                                                19

CONCLUSIONS AND RECOMMENDATIONS                                                           19

CORPORATION COMMENTS AND OIG EVALUATION                                                   20

APPENDIX I                                                                                21

Evaluation Methodology

APPENDIX II                                                                               22

Excerpts of USOPM Guidance for Position Risk Designations

APPENDIX III                                                                              33

Results of Background Investigation Testing

APPENDIX IV                                                                               34

Corporation Comments




                                                3
INTRODUCTION

We conducted this review at the request of the Subcommittee on Oversight and Investigations
(Subcommittee), Committee on Financial Services, U.S. House of Representatives. In its
April 25, 2001 request letter, the Subcommittee discussed how important background
investigations are in helping to minimize the risk that sensitive and private financial data utilized
by federal financial regulatory agencies is improperly accessed, used, or manipulated.

The Subcommittee asked the OIG to conduct an evaluation of the policies, procedures, and
practices under which the FDIC conducts, adjudicates, and documents background investigations
of prospective and current employees. In addition, the FDIC requested that we assess whether
the Corporation had effectively implemented a process to ensure that proper risk designations
had been assigned to FDIC’s positions.

Based on the Subcommittee’s and FDIC’s requests, the objectives of this review were to
(1) evaluate FDIC’s process for conducting, adjudicating, and documenting background
investigations of prospective and current employees and (2) assess whether the FDIC has
effectively implemented a process to ensure that positions have appropriate risk designations.

The scope of our review included the FDIC employees on board as of June 2, 2001, all
individuals hired by the FDIC from January 1, 2000 through June 2, 2001, and all promotions
and reassignments made at that same time. Details of our methodology are included as
Appendix I of this report.

We conducted our evaluation between May 14 and August 15, 2001, in accordance with the
President’s Council on Integrity and Efficiency’s Quality Standards for Inspections.


RESULTS IN BRIEF

The FDIC designed its Personnel Suitability Program to help ensure that the Corporation
employs and retains in employment only those individuals who meet all federal requirements for
suitability and whose employment or conduct would not jeopardize the accomplishment of
FDIC’s duties or responsibilities. The Program includes designating each FDIC position at the
high, moderate, or low risk level, based on the documented duties and responsibilities of the
positions. The designations determine the type of background investigation required and how
closely an individual is screened for a position.

Background investigations are the foundation for, but only a part of, the FDIC’s Personnel
Suitability Program to determine whether employment or continued employment would protect
the integrity and promote the efficiency of the Corporation. Other mechanisms include ethics
and financial disclosure reporting for employees, continuing evaluations of employee
performance and workplace behavior, and employee education. Although background
investigations do not guarantee that individuals will not later engage in unsuitable activities, they
remain a critical step in identifying those who are suitable and serve as a preventive measure to
help ensure employment and retention of suitable employees.


                                                  4
Risk designations drive the type and timing of background investigations that employees
undergo, as well as the adjudication of investigation results. The FDIC needs to do more to
ensure that all corporate positions have risk designations and that such designations are
commensurate with assigned responsibilities and reflected accurately in corporate databases.
Most significantly, the FDIC assigned a low risk designation to nearly all of its safety and
soundness and compliance examiners. In addition, the FDIC did not always consider automated
data processing (ADP) implications for positions outside of its information resources
management division. Because of the significance of these issues, we are presenting them in the
first finding section of our report.

As for the Subcommittee’s questions regarding background investigations, FDIC policies and
procedures comply with provisions of applicable federal laws and regulations. The FDIC also
generally conducted, adjudicated, and documented the investigations for current and prospective
employees in accordance with policies and procedures. We have organized the information
related to background investigations consistent with the questions included in your request letter
as a second finding section.


BACKGROUND

It is the FDIC’s policy that employees and applicants for employment undergo appropriate
background investigations commensurate with positions held or being advertised and in
accordance with relevant laws and federal suitability regulations. According to USOPM,
suitability refers to identifiable character traits and past conduct that are sufficient to determine
whether a given individual is likely or not likely to be able to carry out the duties of a federal job
with appropriate efficiency and effectiveness. Suitability is distinguishable from a person’s
ability to fulfill the qualification requirements of a job, as measured by experience, education,
knowledge, skills, and abilities.

FDIC Circular 2120.1, Personnel Suitability Program, dated September 24, 1999, establishes the
responsibilities, policy requirements, and procedures for the Corporation’s process for
designating the risk level of each employment position and using that designation to determine
the investigation requirements for the position. The Security Management Section (SMS),
Acquisition and Corporate Services Branch, Division of Administration (DOA) has the
responsibility to administer the Corporation's Personnel Suitability Program.

The FDIC uses draft U.S. Office of Personnel Management (USOPM) guidance for designating
position risk levels, determining the type of investigative review to be conducted, and
adjudicating suitability based on the results of the investigations. Excerpts of USOPM guidance
are included as Appendix II of this report. The FDIC also uses the USOPM to conduct all of its
background investigations.

USOPM personnel suitability guidance provides for designating positions at the high, moderate,
or low risk level commensurate with the responsibilities and attributes of the position in relation




                                                  5
to the efficiency of the service being provided by the organization in which the position resides.
The three suitability position risk levels are defined as follows:

•   High Risk Positions involve duties that are especially critical to the agency or program
    mission with a broad scope of responsibility and authority, such as: policy-making, policy-
    determining, and policy-implementing; higher level management duties and assignments, or
    major program responsibility; and independent spokespersons or non-management positions
    with authority for independent action.

•   Moderate Risk Positions involve duties of considerable importance to the agency or program
    mission with significant program responsibility or delivery of service, such as: assistants to
    policy development and implementation; mid-level management duties and assignments; and
    delivery of service positions that demand public confidence or trust.

•   Low Risk Positions involve duties and responsibilities of limited relation to an agency or
    program mission, so the potential for impact on the integrity and efficiency of the service is
    limited.

Included in USOPM guidance and FDIC’s Circular 2120.1 are provisions for determining a
Computer/ADP position risk level at the high, moderate, or low risk levels defined as follows:

•   High Risk Positions have the potential for exceptionally serious impact involving duties
    especially critical to the agency mission with broad scope and authority and with major
    program responsibilities which affect a major Computer/ADP system(s).

•   Moderate Risk Positions have the potential for moderate to serious impact involving duties of
    considerable importance to the agency mission with significant program responsibilities that
    affect large portions of a Computer/ADP system(s).

•   Low Risk Positions have the potential for impact involving duties of limited relation to the
    agency mission through the use of Computer/ADP system(s).

The position risk designation system described above determines the type of investigation
needed for the position. Minimum investigative requirements for the position risk levels are:

•   High Risk – Background Investigation which consists of a Personal Subject Interview
    (PRSI); a basic National Agency Check (NAC) plus credit search; personal interviews with
    employment, residence, educational sources; and law enforcement searches going back 5
    years. The cost for a Background Investigation is $2,365, $2,570, or $2,775, depending on
    the speed of service (120 days, 75 days, and 35 days, respectively).

•   Moderate Risk – Limited Background Investigation (LBI) or Minimum Background
    Investigation (MBI) may be conducted. An LBI consists of a PRSI; NAC plus credit search;
    personal interviews with employment (3 years), residence and educational sources (3 years);
    and law enforcement searches (5 years). An MBI consists of a PRSI and NAC plus credit



                                                 6
    search covering a 5-year period. The cost for an LBI ranges from $1,950 to $2,260,
    depending on the speed of service. An MBI costs $395.

•   Low Risk – The NAC plus written inquiries sent to employers, educational institutions, law
    enforcement agencies, and references are required. The FDIC also requires that a credit
    search be conducted in conjunction with a National Agency Check and Inquiries (NACI)
    upon initial entry to duty for all appointees. The NACI costs $82.

Though not a substitute for background investigations, the FDIC does have additional means for
collecting data to determine employees' suitability and potential conflicts of interest. The FDIC
administers the filing of public and confidential financial disclosure reports required by law for
federal employees. For example, all employees, once employed by the FDIC, must file the
Confidential Report of Interest in FDIC-Insured Depository Institutions Securities (FDIC Form
2410/07) and Employee Certification and Acknowledgment of Standards of Conduct Regulation
(FDIC Form 2410/09). In addition, certain employees, including safety and soundness
examiners and compliance examiners, are required to file Confidential Report of Indebtedness
(FDIC Form 2410/06), Confidential Statement of Credit Card Obligation in Insured State
Nonmember Bank and Acknowledgment of Conditions for Retention – Notice of
Disqualification (FDIC Form 2410/10), and Confidential Financial Disclosure Report (FDIC
Form 2410/05) (for examiners graded CG-12 and above), each on an annual basis.


SUITABILITY POSITION RISK DESIGNATION PROCESS

The FDIC has adopted the Risk Designation System established by USOPM to provide corporate
officials a systematic, consistent, and uniform way of determining risk levels of positions. The
Risk Designation System requires FDIC officials to designate risk levels for every position in
FDIC. Circular 2120.1 directs each FDIC Division or Office Director, or designee, to determine
the sensitivity level of the positions in the respective organizations. SMS is responsible for
administering the designation process and making adjustments in the designations as deemed
necessary. SMS is also responsible for maintaining the Position Designation Records (PDR)
prepared by officials in the FDIC’s divisions and offices as documentation for the designations.
A copy of the PDR form can be found in Appendix II.

The Risk Designation System consists of three parts:

•   Program Placement. The agency (FDIC) identifies both the impact and scope of an agency
    program as related to the integrity and efficiency of the service. Program placement
    categories are major, substantial, moderate, or limited. SMS is responsible for ensuring that
    each corporate program is properly designated.

•   Position Risk Points. The agency determines the degree of risk that a position poses to the
    agency or an agency program as related to the efficiency of the service. Each of five risk
    factors – degree of public trust, fiduciary responsibilities, importance to program, program
    authority level, and supervision received -- is ranked using point values of “1” to “7” with




                                                7
    the higher point value being applied to the higher degree of risk. The point values are totaled
    to provide the total “position risk points” for a position.

•   Position Placement. The Program Placement and Position Risk Points are applied to
    determine the risk level “position placement.” At this point, any pertinent adjustments can be
    made, including unique factors specific to positions as well as organizational factors, to
    provide uniformity of operations.

Upon completion of the three parts of the Risk Designation System, an agency decides the final
placement of the position and the type of investigation to conduct. Final placement of a position
falls into high risk, moderate risk, or low risk.

The USOPM Risk Designation System also includes criteria for designating Computer/ADP
position risk levels. Determining a Computer/ADP position risk level is an adjustment factor on
the PDR for both uniqueness and uniformity and tends to raise the risk level designation.
USOPM guidance states that its Computer/ADP risk level definitions for high, moderate, and
low risk positions should be applied in determining placement for any position with
Computer/ADP duties. Because positions can involve determinations of risk level for both
employment suitability and Computer/ADP, the higher of the two risk levels is used for final
position placement. The Computer/ADP definitions are identified in the Background section of
this report and can also be found in Appendix II.

The FDIC Has Not Completed Position Designation Records for All Positions

Circular 2120.1 includes a requirement that corporate officials designate risk levels for every
(emphasis added) position in the Corporation. Such designations must be commensurate with
the responsibilities and attributes of the positions as they relate to the efficiency of the
Corporation’s operations. The Position Description (PD) – the official record of management’s
assignment of duties, knowledge, skills, required abilities, and supervisory relationships of the
position – serves as the basis for designating suitability risk levels. The divisions and offices
document the designations for each PD in the PDR. SMS is responsible for maintaining the
PDRs for the Corporation's positions.

The FDIC has had a long-standing initiative starting in 1994 to complete risk level designation
records on all PDs in the Corporation. The completion of this initiative has been interrupted by
conflicting demands on SMS resulting from major events such as: the FDIC/RTC merger; PD
rewrites; National Treasury Employees Union (NTEU) objections to the Position Risk
Designation Project; long-term arbitration activities to resolve NTEU concerns; corporate
reorganizations; a complete revamping of the Personnel Suitability Program; and an emphasis on
initiating background investigations on high risk positions. Some FDIC divisions and offices
completed PDRs in 1997, 1998, and 1999 while SMS continued to identify individuals without
background investigations on file. SMS officials could not be certain that all PDs in the
Corporation have been properly designated. However, they were certain that all employees in
high risk positions and most of the moderate and low risk employees have the proper background
investigations in process or completed.




                                                 8
We cannot say with certainty that the FDIC has completed PDRs for every PD in the Corporation
for the following reasons:

•   The FDIC has not filed all of its PDRs into its Security database, the Employee Background
    Investigations Tracking System (EBITS).

•   We found numerous instances where the Corporation’s Personnel database contained
    inaccurate designations. For example, the Personnel database reflects low-risk, moderate-
    risk, and high-risk designations for OIG employees, but all OIG positions have been
    designated as high risk or critical sensitive for National Security purposes. We attempted to
    reconcile the discrepancies we found in the Personnel database and provided SMS our
    information for final resolution. The SMS agreed to coordinate its efforts with DOA's
    Personnel Services Branch (PSB).

•   Some divisions and offices were completing their PDRs during the course of our review.
    Only a small percentage of these designations applied to new PDs.

•   The PD Library on the FDIC internal Web site does not include all PDs. The PSB is in the
    process of revamping the FDIC’s PD files and anticipates having an accurate count of the
    FDIC’s PDs upon completion of the revamping project.

USOPM Criteria Were Not Always Consistently Applied in Determining Position Risk
Levels

Most division and office officials told us they used the USOPM criteria in designating risk
levels for positions in their respective organizations. We reviewed approximately 1,650 PDRs
and found inconsistencies in the way some divisions and offices applied USOPM criteria to their
positions. Some divisions and offices did not use the program placement level assigned by SMS
in factoring the risk levels, resulting in some positions being either under-designated or over-
designated. For example, one office under-designated 32 positions by determining a “limited”
program placement rather than the “substantial” program placement the SMS designated for this
office’s program. Using USOPM criteria and SMS’s “substantial” program placement, we
determined that 10 of the 32 positions should be designated as high-risk, 13 positions should be
designated moderate-risk with a LBI, and 9 positions should be designated moderate-risk with a
MBI.

We also found that some divisions and offices designated their Administrative Officer positions
as moderate risk while the same positions were designated as low-risk in other divisions and
offices. Some divisions and offices designated their Secretary to the Director positions as
moderate-risk, but other organizations designated this position as low risk. FDIC
administratively decided that all executive positions in the Corporation are high-risk positions.

Some divisions and offices did not always appropriately consider the supervisory factor for
some positions. For example, one office assigned a 3-point score to the degree of supervision
received to each non-executive position in the organization, despite the fact that the grade levels
of these positions ranged from grade 6 to grade 15. This office did not complete the position


                                                9
risk points for its executive position, given the global high-risk designation for all executive
positions.

In addition, we will be providing our analyses in this area to SMS for further review and
consideration.

The FDIC’s Safety and Soundness and Compliance Examiner Positions Have a Lower Risk
Level Designation Than Public Trust Positions

We determined that the FDIC assigned a low-risk designation to nearly all of its safety and
soundness examiner positions and its compliance examiner positions. In making its
determinations, the FDIC assigned 2 points to each of the five risk factors -- degree of public
trust, fiduciary responsibilities, importance to program, program authority level, and supervision
received -- resulting in a total 10 points to numerically reflect the degree of risk in the safety and
soundness examiner position. The 10-point score was assigned to all but one safety and
soundness examiner position ranging from grades CG-11 to CG-15. The FDIC identified the
program placement for the division in which safety and soundness examiners are employed as
substantial. The FDIC did not use the “adjustments” feature of the Risk Designation System in
determining the designations for the examiner positions. FDIC’s point-assignment for its
compliance examiner positions ranged from a 7-point score for examiner positions CG-5 through
CG-9 to a 17-point score for examiner positions at the CG-14 grade level

Because of the low-risk designation, safety and soundness examiners and compliance examiners
were only required to undergo a basic NACI, the least comprehensive investigation required, for
basic employment suitability determination. According to USOPM guidelines, positions at the
high or moderate risk levels are referred to as “Public Trust” positions. Based on this USOPM
statement, it appears that FDIC’s safety and soundness examiners and compliance examiners do
not hold “Public Trust” positions. However, the duties identified for a safety and soundness
examiner position recently advertised by FDIC imply that an examiner position is one that
demands public confidence or trust. Specifically, on July 11, 2001, the FDIC announced an
opening for a CG-13 examiner position identified as a low-risk position, involving the following
duties:

       “The incumbent will primarily examine insured depository institutions. The
       individual serves as Examiner-in-Charge of FDIC examinations, with primary
       responsibility for the preparation of the related report of examination. The
       incumbent evaluates and prepares written reports on institutions’ trust
       departments and information systems (IS) departments. The incumbent identifies
       factors and causes, unsafe and unsound practices, and violations of laws and
       regulations that have affected, or may affect, the financial condition and
       soundness of financial institutions. This position involves analyzing and
       classifying assets; analyzing liabilities and capital; reviewing dividend and
       charge-off policies; analyzing earnings trends and future prospects; evaluating
       management and soundness of policies, procedures, and practices; analyzing
       liquidity and sensitivity to market risks; reviewing trust department and IS
       department operations and policies; and determining compliance with laws and



                                                 10
       regulations. The incumbent will meet with insured depository institution officials
       and/or boards of directors to discuss the findings of an examination, corrective
       programs, and commitments for correction of deficiencies; develop
       recommendations for correcting weaknesses or deficiencies; write comments and
       analyses for inclusion in reports of examination; investigate financial institutions
       applying for deposit insurance; and participate in examinations with other federal
       and state examiners.”

The duties stipulated for this examiner position exceed the representative duties and
responsibilities identified in USOPM guidance for a low-risk designation, namely duties and
responsibilities of limited relation to an agency or program mission, so the potential for impact
on the integrity and efficiency of the service is limited. The duties for the examiner position also
exceed the FDIC’s definition of a low-risk position that states: “Low Risk (LR) positions involve
duties with limited relations to the Corporation’s mission which have little effect on the
efficiency of the Corporation’s operations or programs.”

Other financial regulatory agencies have designated their examiner positions –safety and
soundness examiners and compliance examiners – at a higher than a low-risk level. The Office
of the Comptroller of the Currency (OCC) designated its associate and assistant examiner
positions as moderate risk with a MBI. The OCC’s examiner positions at higher grades have
been designated as moderate risk requiring a more extensive LBI. The OCC’s examiner
positions in its International Banking Finance group have been designated at the high-risk level
and have National Security Clearances. The Office of Thrift Supervision (OTS) designated its
examiner positions – safety and soundness examiners and compliance examiners – as moderate-
risk positions requiring an MBI. Given the FDIC’s backup authority to participate in safety and
soundness examinations of insured institutions for which the Corporation is not the primary
federal regulator, it would seem appropriate that position risk designations for FDIC’s examiner
positions would be at least comparable to examiner positions at other regulatory agencies such as
the OCC and OTS.

ADP Responsibilities Were Not Always Considered in Position Risk Designations

Circular 2120.1 includes the following explanation for Computer/ADP position risk levels: “In
accordance with Office of Management and Budget (OMB) Circular A-130, Security of Federal
Automated Information Resources, Division of Information Resources Management (DIRM) has
established personnel security policies and procedures to assure an adequate level of security for
the Corporation’s automated information services. These policies include requirements for
screening all individuals having access to sensitive data.” For computer/ADP positions, the level
of background checks or investigations ranges from a minimal check to a full background
investigation, depending upon the sensitivity of the information to be handled and the risk and
magnitude of loss or harm that could be caused by the individual.

The FDIC appropriately used USOPM criteria for computer/ADP positions in determining
position risk designations for the positions within DIRM and one other division. However, the
other divisions and offices did not always consider the computer/ADP criteria for positions with
ADP responsibilities, as implied in the title of the position. Such considerations would have



                                                 11
been reflected in the adjustments section of the PDR, and in our review of approximately 1,650
records, we found few examples, other than for DIRM and another division, of adjustments
being made due to consideration of the computer/ADP criteria. For example, positions such as
Chief, Information Management Section; Examiner (Information Systems); Supervisory
Instructional Systems Design Specialist; Personnel Systems Specialist; Senior Information
Management Analyst; Financial Systems Specialist; and Payroll/Personnel Systems Specialist
were assigned low-risk designations, and the PDRs reflected no adjustments to the designation
based on Computer/ADP considerations.

FDIC divisions and offices have Information Security Officers (ISO) with assigned security
responsibilities for the systems within their respective organizations. In many cases, the ISO’s
security responsibilities are considered collateral duties. We identified 162 ISOs from the FDIC
Web site and used the Personnel database listing of FDIC employees on board as of
June 2, 2001, to determine the position risk designations for the positions held by the ISOs. We
found that 61 percent of the ISOs work in positions that have been designated as low risk
positions by their respective divisions and offices.

GAO recommended in its June 26, 2001 management letter, Financial Audit: Continuing
Weaknesses in FDIC’s Information System General Controls, that the FDIC study and analyze
the ISO role and responsibilities and develop a process to ensure that security responsibilities are
consistently applied across the FDIC. In its July 26, 2001 response to GAO, the FDIC said its
Chief Information Officer initiated a project to evaluate the ISO program and to ultimately
develop a “Model ISO” organization. A major aspect of the program includes establishing in all
divisions full-time Information Security Manager positions, and it is expected to be implemented
by December 31, 2001. DOA will have to coordinate with the Chief Information Officer to
ensure that the new positions are properly designated and appropriate background checks
conducted.

The area of personnel security was included in the weaknesses identified for the FDIC’s
information system general controls by the U. S. General Accounting Office (GAO) in its 1998,
1999, and 2000 audits of the FDIC’s financial statements. GAO recognized the establishment of
FDIC’s Personnel Suitability Program in its June 26, 2001 management letter. In its letter, GAO
reaffirmed its recommendations including one related to personnel security. Specifically, GAO
recommended that as the FDIC identifies sensitive positions through risk assessments and
security reviews of general control systems and major applications, the FDIC should ensure that
users in these positions undergo the appropriate background checks. In its July 26, 2001
response to GAO, the FDIC agreed that sensitive positions should be properly identified so that
the appropriate level of background check can be performed. The FDIC referenced this OIG
evaluation of the FDIC’s background investigations process and added that DOA planned to
evaluate the results of the OIG review and make appropriate changes to the personnel suitability
program as deemed necessary.

With regard to GAO’s finding that risk assessments and security reviews had not been
completed, the FDIC indicated in its July 26, 2001, response to GAO that Independent Security
Reviews (ISR) will be completed on 28 of 29 major applications and general support systems by
December 31, 2001. As these reviews are completed, DOA will have to be informed of all



                                                12
employees identified as systems users with access to sensitive data for the respective applications
and general support systems reviewed so that DOA can revisit the risk designations of those
employees. To illustrate, the FDIC issued a report, Independent Security Review of the FDIC
Mainframe, on December 29, 2000, which included a recommended action that the FDIC ensure
procedures are in place to alert DOA of all new personnel assignments into sensitive positions to
prevent any disconnect between the procedures for granting system access to users with a
“sensitive” designation and DOA procedures for initiating and conducting the appropriate
background checks.


BACKGROUND INVESTIGATION PROCESS

The Subcommittee requested that our review consider a series of questions related to policies and
procedures of the FDIC in conducting, adjudicating, and documenting background investigations
of prospective and current employees. The following sections contain responses to those
questions.

1. Has the Corporation issued policies for conducting, adjudicating, and documenting
background investigations of prospective and current employees?

The FDIC issued its policies and procedures for conducting, adjudicating, and documenting
investigations of prospective and current employees in Circular 2120.1. We reviewed Circular
2120.1 and determined that the Circular complied with major provisions of applicable federal
laws and regulations related to personnel suitability.

The directive states that it is the FDIC’s policy that employees and applicants for employment
undergo a NACI with Credit, or other appropriate background investigation according to the
positions held, in order to comply with the Resolution Trust Corporation Completion Act
(RTCCA) and relevant federal suitability regulations. The FDIC’s policy is to employ and retain
in employment only those persons who meet all federal requirements for suitability – character,
reputation, honesty, integrity, trustworthiness – and whose employment or conduct would not
jeopardize the accomplishment of the Corporation’s duties or responsibilities.

Circular 2120.1 states that applicants, appointees, and employees will be subject to mandatory
bars outlined in 12 CFR Part 336, Minimum Standards of Fitness for Employment with the
Federal Deposit Insurance Corporation, which prohibit any person from becoming employed
by, or providing service to, the FDIC. The mandatory bars are: felony convictions, removal from
or prohibition from participating in the affairs of an insured institution, defalcation in obligations
to insured institutions, and causing substantial loss to deposit insurance funds. These mandatory
bars are also included in the RTCCA. The FDIC requires a credit search with its background
checks to comply with the RTCCA.




                                                 13
2. Has the Corporation issued or adopted a set of procedures, known to personnel officers
and program managers, under which the policies for investigations of prospective and
current employees are to be implemented?

Circular 2120.1 establishes the responsibilities, policy requirements, and procedures for the
FDIC’s Personnel Suitability Program. The Circular describes general provisions of the FDIC’s
Personnel Suitability Program, discusses the suitability position risk designation system, and
provides information on investigative requirements, suitability adjudication, record keeping, and
program administration matters. The Circular was issued to all employees on
September 24, 1999. The provisions of Circular 2120.1 apply to all applicants, appointees, and
employees of the Corporation.

Although FDIC employees have access to Circular 2120.1 through the FDIC internal Web site,
the directive is not accessible to applicants for corporate positions on the FDIC’s external Web
site. We reviewed recent FDIC vacancy announcements and found the announcements included
a statement on the position sensitivity and type of background investigation required for the
advertised position. For instance, a recent announcement for an examiner-in-charge position
included the following:

       "Position Sensitivity: Low Risk--National Agency Check Investigation
        Required: see Circular 2120.1, dated 9/24/1999."

However, the Circular is not accessible to an applicant without contacting the FDIC to obtain a
copy. DOA should consider establishing a link to Circular 2120.1 on the vacancy announcement
to provide external applicants an easy access to the Circular and an explanation of the
background investigation required for the advertised position.

3. Have the procedures been recently reviewed and revised?

The FDIC’s current Circular 2120.1, issued on September 24, 1999, is a revision of Circular
2120.1, Personnel Security Program, dated July 3, 1978. When the FDIC created SMS in late
1995, the Corporation recognized that the personnel security directive was out of date and
required significant revisions. SMS drafted a revision to the directive. However, a number of
objections were raised by NTEU, and the directive could not be finalized until NTEU’s concerns
were resolved. Ultimately, SMS met with the NTEU and a federal mediator to resolve the
concerns, and a Memorandum of Understanding (MOU) was signed by NTEU and the
Corporation representing the agreements reached concerning the implementation of the FDIC’s
security and suitability program insofar as it affects bargaining unit employees.

The MOU, signed in September 1999, includes the following provisions:

•   That NTEU be consulted about high risk designations before notifying the employees.
•   That a notification to the employee must include an explanation of the reasons why the
    position has been designated as high risk.
•   That all job announcements or other solicitations of interest for positions should identify the
    position risk designation and the nature of the investigation required.


                                                 14
•     That only those employees in positions designated as “High Risk” will be subject to periodic
      reinvestigations, which shall occur not more than one in every five years.

4. How does the FDIC monitor compliance with these procedures?

SMS is responsible for implementing the FDIC's suitability program. Since its creation in late
1995, SMS has been involved in various initiatives to monitor and improve the personnel
suitability program. Recent efforts include the following:

•     In 1999, SMS reviewed security and personnel records in Headquarters and regional offices
      for employees identified as not having suitability investigations. SMS focused its efforts on
      high risk employees followed by moderate and low risk employees. The Assistant Director,
      SMS, was very confident that background investigations for all employees designated high
      risk were either in process or completed. SMS requested that USOPM complete 782
      investigations during the period from October 1, 2000 to June 15, 2001.

•     SMS has a database, EBITS, to track information related to the personnel suitability program.
      SMS said that EBITS had not been populated with background investigation information on
      all employees. FDIC's DIRM recently made SMS-requested modifications to EBITS, but
      those fields have not been populated with data. SMS does not rely on EBITS, but instead
      uses Excel spreadsheets, tickler files and manual reports to track background investigations.

•     The Assistant Director, SMS, is a member of a multi-agency task force, Security Clearance
      Automation Laboratory, Phase II (SECLEAR II), whose goal is to identify best practices of
      security management tracking systems. SECLEAR II membership includes representatives
      from the Departments of Justice, Commerce, and Energy, as well as the FDIC and the
      USOPM. According to its charter, the mission of SECLEAR II is “..to create a process to
      achieve efficient and timely staffing of critical positions by integrating automated security
      forms and processing capabilities.” The Assistant Director, SMS, told us that one of the
      advantages of his participation in SECLEAR II is to learn about best practices that could be
      applied to EBITS to meet reporting requirements and better integrate EBITS with other
      personnel systems.

•     SMS provides DOA senior management and the FDIC’s Office of Internal Control
      Management a biweekly report on the status of background investigations. As mentioned
      earlier, SMS uses Excel spreadsheets, tickler files, and manual reports to track the status of
      background investigations. The latest report, dated August 1, 2001, contained the following:

Table 1: DOA Status Report 08/01/2001
                                                                             Forms pending    Forms pending
                 Total      Completed         Pending           In process   completion by    completion for
    Category    Number     Investigation    Adjudication        at USOPM       employee          interns
    High Risk        605             549               4                36               16                n/a
     Low and       5,951           5,684              45               201               17                  4
    Moderate
       Risk
    Total          6,556            6,233                49           237                33                 4
Source: DOA Background Investigation Status Report 08/01/2001



                                                         15
•   The DOA Management Review Group (MRG) completes Administrative Compliance
    Reviews (ACR) for DOA's Washington and regional offices. For example, an ACR of the
    Washington office, dated March 28, 2000, reported that background investigations were
    completed on all employees hired between January 1999 and June 1999.

•   The Personnel Suitability Program was reviewed as a part of GAO's audit of FDIC's financial
    statements.

•   SMS is currently completing a self-assessment at the request of and under the supervision of
    the USOPM.

5. What evidence do you have to demonstrate that the Corporation has implemented these
procedures in a manner that minimizes the risk of improper access, use, or manipulation of
sensitive private financial data?

The Subcommittee’s request letter emphasizes the importance of background investigations in
helping to minimize the risk that sensitive and private financial data utilized by federal financial
regulatory agencies is improperly accessed, used, or manipulated. The letter states:

       "That risk could arise not only from contractors whose backgrounds have not
       been sufficiently investigated, but also from the Corporation's own employees,
       prospective and current. It is critical to the safety and security of the financial
       services industry, and to consumers' confidence in the industry's ability to protect
       personal financial data, that federal employees with actual or potential access to
       such data meet stringent security conditions and are subject to periodic
       investigations throughout their career. Recent disclosures in the intelligence
       community are an embarrassing reminder that we cannot assume that veteran
       employees need not be periodically re-investigated. "

The FDIC’s personnel suitability program was designed to help ensure that the Corporation
employs and retains in employment only those individuals who meet all federal requirements for
suitability and whose employment or conduct would not jeopardize the accomplishment of the
FDIC’s duties or responsibilities. Our review showed that the FDIC generally conducted,
adjudicated, and documented background investigations for current and prospective employees
in accordance with corporate personnel suitability requirements. However, we cannot
demonstrate that the FDIC’s implementation of its personnel suitability program completely
minimizes the risk of improper access, use, or manipulation of sensitive private financial data
due to the issues discussed earlier in this report regarding the FDIC's position risk designation
process.

We reviewed security folders or Official Personnel Folders for 236 of the 240 employees in our
sample to determine if background investigations were performed and adjudicated. No folders
were available for 4 of the 240 employees because they were no longer employed by the FDIC.




                                                 16
In our review of the 236 folders, we found that the FDIC generally conducted, adjudicated, and
documented background investigations according to FDIC policies and procedures except for the
following:

•   Background investigations were not completed for two newly hired employees who worked
    in positions designated as low risk.
•   Folders for nine employees did not contain background investigations.
•   Folders for eight employees, who work in positions designated as moderate risk, contained
    evidence of a NACI, a less extensive investigation than the required LBI or MBI for a
    moderate risk position.

In regard to the nine employees whose folders contained no evidence of background
investigations, SMS officials told us that other sources, such as USOPM, could be used to
determine if background investigations had been completed for the nine employees. However,
we did not complete that alternative testing because we chose to review documentation
maintained by the FDIC.

Appendix III summarizes the results of our testing. In addition, we will be providing our
detailed analysis in this area to SMS for further review and resolution.

We reviewed the timeliness of the adjudication process for background investigations after the
FDIC hires an applicant. The FDIC contracts with USOPM to complete background
investigations. After the investigation is completed, USOPM forwards the investigation and a
preliminary adjudicating suitability assessment. USOPM may identify issues and grade them on
a scale of A-D, of which D is the most serious. SMS officials could not recall any FDIC cases
that were graded D. Furthermore, SMS officials stated that most issues identified by USOPM
are related to overseas travel and small credit issues.

SMS reviews the background investigation and if necessary completes additional research. In
some cases, SMS contacts the employee orally or in writing to get more information. If an issue
may have a potential effect on a person's employment with the FDIC, SMS contacts the Labor
and Employee Relations Section of the PSB.

SMS uses USOPM guidance to make an adjudication decision. In addition to adjudicating the
case based on USOPM standards, SMS reviews each case file to make sure that there are no
violations of the RTCCA.

We obtained information from security folders on investigations requested and adjudicated by
SMS. We did not include employees whose background investigations were completed by
another agency. There were 98 cases within our sample of 240 employees that included
sufficient information to determine the timeliness of the adjudication process.

As shown in Table 2, the average time from completed investigation to FDIC adjudication for 98
cases was 19 days.




                                               17
Table 2: Average Days from Completed Investigation to Adjudication
                         Number of cases with information on         Average Days from Completed
       Category          FDIC investigation and adjudication          Investigation to Adjudication
 High Risk                                                   54                                       22
 Moderate Risk                                               11                                       20
 Low Risk                                                     7                                       10
 Promotions and                                              10                                       16
 Reassignments
 New Hires                                                   16                                       17
 Total                                                       98                                       19
Source: OIG analysis of selected security folders


6. Are background investigations of prospective employees conducted prior to hiring?
Provide analysis demonstrating that Corporation managers adjudicate the results in a
timely manner, so troublesome cases are quickly resolved prior to final employment
decisions. Provide proof that the results of the investigations are documented in personnel
files.

The FDIC performs pre-employment checks on prospective employees before they are hired.
Once an applicant is selected for a vacancy, the hiring office sends the applicant’s OF-306
(Declaration for Federal Employment) or resume to SMS. SMS, based on information in the
OF-306 or resume, does the following:

     •    Completes a background check,
     •    Contacts USOPM to see if they have any record of investigation on the applicant, and
     •    Contacts any federal agencies where the applicant has been employed.

If there are no issues, SMS notifies the hiring office by electronic mail that the applicant can be
hired by the FDIC. If issues arise during the pre-employment checks that may preclude
employment, SMS discusses the issues with the hiring office and PSB. PSB may request
additional information or explanation from the applicant. SMS officials said they could not
remember a recent case of a prospective employee being denied employment at the FDIC.

We selected a sample of 30 employees hired by the FDIC during the period January 1, 2000
through June 2, 2001. We found that pre-employment checks were conducted for 24 of the 30
employees prior to hiring. Those pre-employment checks were completed an average of 29 days
prior to hiring. The following information is related to the remaining six cases:

•    Pre-employment checks were not completed for two employees until after they were hired.
     The pre-employment check was completed an average of 10 days after hiring. However,
     appropriate background investigations were adjudicated favorably for the two employees.

•    There was no information in one employee's security folder. The employee was a secretary
     who is now on leave without pay.

•    There were no security folders for three employees because they were no longer employed by
     FDIC.



                                                    18
7. Are current employees periodically re-investigated throughout their careers, and are
such re-investigations adjudicated and documented to the same extent as investigations for
prospective employees?

FDIC Circular 2120.1 states: "The incumbents of Public Trust Positions designated High Risk
are subject to periodic reinvestigation at least once every 5 years after placement."

Our sample of 240 employees included 26 employees whose periodic reinvestigations were in
process (5 cases) or completed (21 cases). Based on our review, we found that:

•   The FDIC sent 18 cases to USOPM for investigation an average of 1,810 days after the
    previous background investigation. The Circular requires a reinvestigation every 5 years
    (1,825 days).
•   The FDIC did not send eight cases to USOPM within 5 years. Those cases were sent to
    USOPM for investigation an average of 1,982 days after the previous background
    investigation. The median for the eight cases was 1,907 days.

We found that the 26 periodic reinvestigations in our sample were documented to the same
extent as the previous background investigations.


CONCLUSIONS AND RECOMMENDATIONS

We determined that the FDIC has implemented a process for determining suitability risk levels
for its positions. However, the FDIC needs to do more to ensure that all corporate positions have
risk designations, they are commensurate with assigned responsibilities, and are reflected
accurately in corporate databases. We also determined that the FDIC generally conducted,
adjudicated, and documented background investigations for current and prospective employees
in accordance with the Corporation’s policies and procedures.

While the FDIC has undertaken a series of initiatives designed to improve the personnel
suitability program, further actions are needed. We recommend that the FDIC:

1. Involve SMS in the Position Description revamping project.

2. Assess the need to complete new Position Designation Records for position risk designations
   where FDIC divisions and offices inconsistently applied USOPM criteria in making the
   designations.

3. Consult with the Division of Supervision and Division of Compliance and Consumer Affairs
   to re-designate position sensitivity levels for their examiner positions to reflect their public
   trust responsibilities.

4. Ensure that divisions and offices alert SMS of all personnel assignments to positions where
   users have access to sensitive computer systems or data.




                                                19
5. Ensure that SMS coordinates with the Chief Information Officer to ensure that new
   Information Security Manager positions are properly designated and appropriate background
   checks are performed.

6. Ensure that all position risk designations are completed and accurately reflected in the
   Corporation's databases.

7. Establish a specific schedule to update the Corporation’s employee security database, EBITS.

8. Consider establishing a link to Circular 2120.1, Personnel Suitability Program, in position
   vacancy announcements.


CORPORATION COMMENTS AND OIG EVALUATION

On August 15, 2001, the Director, DOA, provided a written response to the draft report. The
Director, DOA, tentatively agreed with the eight recommendations. The response is presented in
Appendix IV of this report.

The Director, DOA, stated that since the recommendations involve a number of FDIC divisions
and offices, the DOA Security Management Section will assess each recommendation and will
work with the other affected divisions and offices to develop specific action plans. The Director,
DOA, will issue a separate memorandum to the OIG by September 15, 2001, summarizing the
planned corrective actions and providing expected completion dates along with the
documentation that will confirm completion. The OIG will evaluate the FDIC’s planned
corrective actions and provide the results of our analysis to the Subcommittee.




                                                20
                                                                                   APPENDIX I

                                   Evaluation Methodology

To address the first objective of evaluating FDIC’s process for conducting, adjudicating, and
documenting background investigations of prospective and current employees, our methodology
included:

•   Identifying employees on board as of June 2, 2001 and selecting a statistical sample of 240
    employees to include 30 employees in each of the following categories:

       1.   High Risk Positions located in Headquarters.
       2.   High Risk Positions located in the eight Regional Offices.
       3.   Moderate Risk Positions located in Headquarters.
       4.   Moderate Risk Positions located in the eight Regional Offices.
       5.   Low Risk Positions located in Headquarters.
       6.   Low Risk Positions located in the eight Regional Offices.
       7.   Employees hired by the FDIC during from January 1, 2000 through June 2, 2001.
       8.   Promotions from January 1, 2000 through June 2, 2001.

•   Selecting security folders and Official Personnel Folders for the 240 employees to review for
    evidence of background investigations and adjudicative activities.
•   Comparing information in the FDIC’s Personnel database to the FDIC’s Employee Security
    database.
•   Reviewing applicable laws, regulations, USOPM guidance, and FDIC procedures on the
    requirements for background investigations.
•   Interviewing key officials in SMS, divisions, and offices.
•   Reviewing management reports, prior audit reports, and Administrative Compliance Review
    reports.

To address the objective of assessing whether the FDIC has effectively implemented a process to
ensure that positions have appropriate risk designations, our methodology included:

•   Reviewing applicable laws, regulations, USOPM guidance related to its Risk Designation
    System, and FDIC procedures on the requirements for position risk designations.
•   Interviewing SMS officials and officials in 16 FDIC divisions and offices to obtain an
    understanding of the FDIC’s position risk designation process.
•   Reviewing approximately 1,650 Position Designation Records completed by 16 divisions and
    offices.
•   Interviewing officials in the Office of the Comptroller of the Currency and Office of Thrift
    Supervision regarding position risk designations for examiner positions.
•   Reviewing U.S. General Accounting Office audit reports, independent security review report,
    and FDIC vacancy announcements.




                                               21
                                                            APPENDIX II

Excerpts of USOPM Guidance for Position Risk Designations




                           22
                                                            APPENDIX II

Excerpts of USOPM Guidance for Position Risk Designations




                           23
                                                            APPENDIX II

Excerpts of USOPM Guidance for Position Risk Designations




                           24
                                                            APPENDIX II

Excerpts of USOPM Guidance for Position Risk Designations




                           25
                                                            APPENDIX II

Excerpts of USOPM Guidance for Position Risk Designations




                           26
                                                            APPENDIX II

Excerpts of USOPM Guidance for Position Risk Designations




                           27
                                                            APPENDIX II

Excerpts of USOPM Guidance for Position Risk Designations




                           28
                                                            APPENDIX II

Excerpts of USOPM Guidance for Position Risk Designations




                           29
                                                            APPENDIX II

Excerpts of USOPM Guidance for Position Risk Designations




                           30
                                                            APPENDIX II

Excerpts of USOPM Guidance for Position Risk Designations




                           31
                                                            APPENDIX II

Excerpts of USOPM Guidance for Position Risk Designations




                           32
                                                                                                                                              APPENDIX III

                                                           Results of Background Investigation Testing

  The following table is a summary of the testing for each sample subset:

                                                                 # of                          # of             Total                          Number of Cases
                                                             Background       Official     Background        Background        Evidence of     Without
                                             Security       Investigations   Personnel    Investigations    Investigations         No          Background
                                 Sample       Folders       Completed or      Folders     Completed or     Completed and In   Background       Investigation
   Category       Universe        Size       Reviewed         In Process     Reviewed       In Process         Process        Investigation    Information
High Risk -         347            30           29                29             1               0                29                0                    1
DC
High Risk -          103            30           29                29            1              1                 30                0                   0
Region
Moderate Risk        780            30            9                 9           21              19                28                0                   2
- DC
Moderate Risk        524            30            8                 8           22              20                28                0                   2
- Region
Low Risk -          1,314           30            8                 8           22              19                27                0                   3
DC
Low Risk -          3,427           30            5                 5           25              24                29                0                   1
Region
New Hires            467            30           27                25            0              0                 25                2                    3
                                                                                                                                               (No longer employed
                                                                                                                                                  by the FDIC)
Promotions          1,832           30           13                13           16              16                29                0                    1
                                                                                                                                               (No longer employed
                                                                                                                                                  by the FDIC)
Total               8,794          240          128               126          108              99               225                2                   13
  Source: OIG Analysis of Security Folders and Official Personnel Folders




                                                                                     33
                       APPENDIX IV

Corporation Comments




         34
